                 United States Department of the Interior

                                 Office of Inspector General
                                      Western Region
                                           Federal Building
                                    2800 Cottage Way, Suite E-2712
                                      Sacramento, California 95825




                                                         Report No. W-VS-NPS-0002-2007
                                                                         March 20, 2007

Memorandum

To:        Assistant Secretary for Policy, Management and Budget
              (Attention: Associate Director for Finance, Policy and Operations)
           Superintendent, Yosemite National Park, National Park Service

From:      Michael P. Colombo
           Regional Audit Manager

Subject:   Verification Review of Recommendations from Our March 2003 Advisory
           Report No. 2003-I-0013 Yosemite National Park’s Museum Operations,
           National Park Service

        The Office of Inspector General has completed a verification review of
recommendations presented in the subject audit report. The objective of the review was
to determine whether the recommendations were implemented as reported to the Office
of Financial Management, Office of Policy, Management and Budget.

Background

       Our March 2003 advisory report Yosemite National Park’s Museum Operations,
National Park Service (No. 2003-I-0013) made four recommendations to Yosemite
National Park (YNP) related to ensuring the security, preservation, and protection of
YNP’s museum collection.

       In a November 19, 2002 response to the draft of the subject report, YNP generally
agreed with and supported the findings and recommendations. Based on this response,
we considered Recommendations 1 and 2 resolved and not implemented,
Recommendation 3 unresolved, and Recommendation 4 resolved and implemented.
Based on YNP’s response to the final report and conversations with National Park
Service (NPS) we considered Recommendation 2 resolved and implemented.
Accordingly, on November 14, 2003, we referred Recommendations 1 and 3 to the Office
of Financial Management for tracking of implementation. In a memorandum dated
October 12, 2005, the Office of Financial Management reported to the Office of Inspector
General that Recommendation 1 was implemented and considered closed.
Scope and Methodology

       The scope of this review was limited to determining whether YNP took action to
implement the recommendations. To accomplish our objective, we reviewed the
supporting documentation that YNP officials provided us relating to each of the
recommendations. We also interviewed YNP program officials to gather additional
information and to seek clarification on some of the information that YNP provided.

       Our verification review announced the review of all four recommendations;
however, since the Office of Financial Management is still tracking Recommendation 3
and does not yet consider it implemented, we revised our scope to report only on
Recommendations 1, 2, and 4.

       We did not perform any site visits or conduct any detailed audit fieldwork to
determine whether the underlying deficiencies that were initially identified have actually
been corrected. As a result, this review was not conducted in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States.

                                  Results of Review
       Our current review found that YNP has implemented Recommendations 1, 2,
and 4. The status of the recommendations is summarized in the Appendix.

Recommendation 1: “Comply with the requirement to perform an annual inventory
of the museum collection. Prior to performing this inventory, the controlled
museum property listing should be updated to include all items greater in value
than $1,000.”

        In its November 19, 2002 response to the draft report, YNP stated it concurred
with performing an annual inventory and updating the listings with additional items with
current values of $1,000 or more.

        We obtained the annual inventory listings for fiscal years 2005 and 2006 and the
controlled property listing, which included items valued at $1,000 or more. In our review
of the controlled property listings for fiscal years 2005 and 2006, we found a difference
of 74 items. YNP informed us that this difference was caused by the conversion of paper
records to automated records. YNP reconciled the difference to correct the fiscal year
2006 listing. Accordingly, we concluded that Recommendation 1 has been resolved and
implemented.

Recommendation 2: “Direct museum staff to meet the performance goal related to
reducing the cataloging backlog.”




                                             2
        In its November 19, 2002 response to the draft report, YNP stated that museum
staff would be directed to meet performance goals related to the reduction of backlog
cataloging.

        While we were unable to obtain any written statement directing museum staff to
meet performance goals related to reducing the catalog backlog, YNP has met and or
exceeded its performance goal for fiscal years 2004 through 2006. The FY 2004 – FY
2006 Strategic Plan for Yosemite contained the new performance goal for museum
objects cataloged, which is a 9 percent increase over 4 years. This new performance goal
replaced the .01 percent increase per year used in our March 2003 review.

Recommendation 4: “Review, document, and obtain all required approvals prior to
any exchanges or transfers of the Park's museum property.”

        When the subject audit report was issued, we considered Recommendation 4
resolved and implemented with no need for further action. We spoke to YNP officials,
who informed us since our final report was issued in March 2003, no exchanges or
transfers of museum artifacts or property from the museum collection have occurred.
Accordingly, we concluded that Recommendation 4 has been resolved and implemented.

Conclusion

      We informed NPS officials of the results of this review at an exit conference on
March 1, 2007. The NPS officials agreed with the results of our verification review.

       If you have any questions about the report, please contact me at (916) 978-5653.


cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
      Management, Office of the Assistant Secretary for Policy, Management and
      Budget
    Audit Liaison Officer, Department of the Interior
    Audit Liaison Officer, Assistant Secretary for Fish and Wildlife and Parks
    Audit Liaison Officer, National Park Service




                                           3
                                                           Appendix


STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS


Recommendation            Status                Action Required

      1          Resolved and Implemented   No further action required.

      2          Resolved and Implemented   No further action required.

      4          Resolved and Implemented   No further action required.




                            4
